Judd E. Stone II
Solicitor General

(512) 936-1700
Judd.Stone@oag.texas.gov

August 12, 2021
Via E-File
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re: Faryion Edward Wardrip v. Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division, No. 21-5226
Dear Mr. Harris:
In accordance with Supreme Court Rule 30.4, Respondent Bobby Lumpkin,
Director, Texas Department of Criminal Justice, Correctional Institutions Division,
respectfully moves for an extension of the time for ﬁling his response to the petition
for writ of certiorari in this matter.
This is a capital case. The response is currently due on August 26, 2021.
Respondent requests a 30-day extension, creating a new ﬁling date of September 27,
2021.* My ofﬁce conferred with counsel for Petitioner on August 12, and Petitioner
does not oppose the requested extension.
The extension is needed because the undersigned counsel and other counsel
assisting with this matter have numerous brieﬁng and argument obligations,
including:

* Thirty days from August 26 is September 25, which is a Saturday. Thus, the operative deadline would be September 27.
P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

Scott S. Harris
August 12, 2021
Page 2
• The Ector County Alliance of Businesses v. Abbott, No. 11-20-00206-CV in the
Texas Court of Appeals for the Eleventh Judicial District (oral argument
August 19);
• Texas Department of Public Safety v. K.T., Nos. 20-0977 & 21-0075 in the
Supreme Court of Texas (petitioner’s brief due August 18);
• Texas v. Brooks-LaSure, No. 6:21-cv-00191 in the U.S. District Court for the
Eastern District of Texas (preliminary injunction ﬁled July 16; reply brief ﬁled
August 3; supplemental brief and motion for temporary restraining order ﬁled
August 11; hearing on August 17);
• In re Abbott, No. 05-21-00687-CV in the Texas Court of Appeals for the Fifth
Judicial District (mandamus petition ﬁled August 11);
• In re Abbott, No. 21-0667 in the Supreme Court of Texas (mandamus petition
ﬁled August 9);
• Will v. Lumpkin, No. 20-1669 in the Supreme Court of the United States (brief
in opposition to petition for a writ of certiorari ﬁled August 2);
• Dobbs v. Jackson Women’s Health Org., No. 19-1392 in the Supreme Court of
the United States (amicus brief ﬁled July 29).
For the foregoing reasons, Respondent respectfully requests an extension of the
deadline for ﬁling a response to the petition for writ of certiorari, creating a new
deadline of September 27, 2021.
Sincerely,
/s/ Judd E. Stone II
JUDD E. STONE II
Solicitor General
Counsel of Record
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Fax: (512) 474-2697
Judd.Stone@oag.texas.gov
P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

Scott S. Harris
August 12, 2021
Page 3
cc:

Bruce Anton (Counsel for Petitioner)

P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

